No. 19-1186
IN THE

Supreme Court of the United States
JOSHUA BAKER, DIRECTOR, SOUTH CAROLINA
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Petitioner,
v.
PLANNED PARENTHOOD SOUTH ATLANTIC, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Fourth Circuit
SUPPLEMENTAL BRIEF FOR RESPONDENTS
ALICE CLAPMAN
Counsel of Record
HELENE T. KRASNOFF
PLANNED PARENTHOOD
FEDERATION OF AMERICA
1110 Vermont Avenue NW,
Suite 300
Washington, DC 20005
(202) 973-4800
alice.clapman@ppfa.org

i
RULE 29.6 STATEMENT
The Rule 29.6 Statement in the brief in opposition
remains accurate.

ii
TABLE OF CONTENTS
Page
INTRODUCTION ........................................................1
ARGUMENT ...............................................................1
CONCLUSION ............................................................6
SUPPLEMENTAL APPENDIX
District Court’s Order Granting Summary
Judgment (Sept. 17, 2020) ............................. 1a

1
INTRODUCTION
Pursuant to this Court’s Rule 15.8, respondents
Planned Parenthood South Atlantic (PPSAT) and Julie Edwards respectfully submit this supplemental
brief to alert the Court to additional developments
that soon will moot the petition.
This case comes to the Court on petition for a writ
of certiorari to review the Fourth Circuit’s affirmance
of a preliminary injunction. On September 17, 2020,
the district court granted respondents’ motion for
summary judgment and stated that it soon will enter
a permanent injunction. App., infra, 11a. Entry of
the permanent injunction will moot petitioner’s appeal of the preliminary injunction, and the Court will
lack Article III jurisdiction because there will be no
case or controversy about the preliminary injunction.
For that reason (and for the reasons stated in the brief
in opposition), the Court should deny the certiorari petition.
ARGUMENT
1. The petition seeks this Court’s review of a
Fourth Circuit decision affirming a preliminary injunction. South Carolina terminated PPSAT’s participation in the state Medicaid program without cause.
Pet. App. 7a-9a. Respondents challenged the termination as violating, among other things, the Medicaid
Act’s free-choice-of-provider provision. Id. at 9a-10a;
see 42 U.S.C. § 1396a(a)(23)(A) (free-choice-of-provider provision). The district court preliminarily enjoined petitioner (director of the state health department) from terminating PPSAT’s participation in the
state Medicaid program, Pet. App. 47a, 65a-66a, and
the court of appeals affirmed, id. at 4a, 12a-23a, 39a.

2
Petitioner seeks review of the court of appeals’ decision affirming the preliminary injunction. See Pet. 11.
In the brief in opposition, respondents explained
that proceedings in district court were ongoing, and
that the parties had fully briefed a motion for summary judgment. Br. in Opp. 23-24. Respondents
noted that this Court often does not review interlocutory orders and suggested that the ongoing districtcourt proceedings provided a good reason to deny certiorari. Id. at 24 (citing cases).
On September 17, 2020, the district court granted
respondents’ motion for summary judgment. App., infra, 1a-11a. As before, the court held that South Carolina violated the Medicaid Act’s free-choice-of-provider provision. Id. at 6a-7a. The court then stated
that it “will issue a permanent injunction enjoining
[petitioner] and his agents, employees, appointees,
delegates, and successors from terminating PPSAT
from Medicaid.” Id. at 11a.
The court specified a schedule for entry of the permanent injunction: Respondents shall provide a draft
order “within seven days from the entry of [its] Order,”
and then petitioner will have “seven days after receiving the draft order to submit any comments on the
proposed order to the Court.” App., infra, 11a. Respondents submitted the draft order to the district
court on September 21, 2020. Petitioner has until
September 28, 2020, to respond, and the district court
is expected to enter the permanent injunction in a
matter of weeks.
Respondents are advising the Court of these developments now, rather than waiting for the district
court to enter the permanent injunction, because the

3
petition is scheduled to be considered at the Court’s
October 9, 2020, conference.
2. When the district court enters the permanent
injunction, the appeal of the preliminary injunction
will be moot. That is an Article III defect in the petition; there will no longer be a live case or controversy
with respect to the preliminary injunction.
In general, “an appeal from the grant of a preliminary injunction becomes moot when the trial court enters a permanent injunction, because the former
merges into the latter.” Grupo Mexicano de Desarrollo
S.A. v. Alliance Bond Fund, Inc., 527 U.S. 308, 314
(1999); see Steven M. Shapiro et al., Supreme Court
Practice § 19.3(B) (11th ed. 2019) (“[A]n appeal from a
temporary injunction becomes moot once a permanent
injunction is entered.”). In entering a preliminary injunction, the court makes a preliminary assessment of
the merits and determines whether the balance of the
equities favors granting temporary relief. Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008).
When the court then enters a permanent injunction,
the court makes a final determination on the merits
and on the appropriateness of equitable relief. eBay
Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391
(2006).
The point is that, once the court has entered the
permanent injunction, there generally is no longer
any live dispute about the suitability of preliminary
injunctive relief. If the party enjoined believes the
permanent injunction was entered in error, he or she
can seek review of the permanent injunction. As the
Court explained in Grupo Mexicano, if the plaintiff “is
found to be entitled to the permanent injunction that
he seeks,” “even if the preliminary injunction was
wrongly issued,” “its issuance would in any event be

4
harmless error.” 527 U.S. at 314-15. Thus, “it is reasonable to regard the preliminary injunction as merging into the final one: If the latter is valid, the former
is, if not procedurally correct, at least harmless.” Id.
at 315. Accordingly, once a court enters a permanent
injunction, a dispute about “the correctness of the decision to grant a preliminary injunction” becomes
“moot.” Univ. of Tex. v. Camenisch, 451 U.S. 390, 394
(1981).
When a dispute becomes moot, it no longer presents an Article III “case” or “controversy” for this
Court to decide. See Already, LLC v. Nike, Inc., 568
U.S. 85, 90-91 (2013). If the Court already has
granted a certiorari petition in the case, it should dismiss the petition. Grupo Mexicano, 527 U.S. at 314;
see, e.g., Camenisch, 451 U.S. at 393-94; Smith v. Ill.
Bell Tel. Co., 270 U.S. 587, 588-89 (1926). And if the
Court has not yet made a decision about whether to
grant the certiorari petition (as is the case here), it
should deny the petition.
The Court has recognized a limited exception to
this mootness principle, when a defendant challenges
the preliminary injunction on a ground wholly “independent” of the plaintiff ’s underlying claim on the
merits, so that “the substantive validity of the final
injunction does not establish the substantive validity
of the preliminary one.” Grupo Mexicano, 527 U.S. at
310, 315, 317 (holding that the question whether a district court “has the power to issue a preliminary injunction preventing the defendant from transferring
assets in which no lien or equitable interest is
claimed” is not mooted by entry of the permanent injunction). In that circumstance, the permanent injunction does not address the independent issue presented in the appeal of the preliminary injunction,

5
and so issuance of the permanent injunction does not
moot that appeal. See id. at 315. (That exception does
not apply here, as explained below.)
3. Applying this Court’s precedents, it is clear that
this case soon will become moot, and so the Court
should deny the certiorari petition. The petition argues that the district court erred in concluding that
respondents were likely to succeed on the merits of
their claims under 42 U.S.C. § 1983, because (in petitioner’s view) the Medicaid Act’s free-choice-of-provider provision does not confer a right enforceable under Section 1983. Pet. 8; see Pet. App. 50a-60a. In
subsequently issuing summary judgment, the district
court decided the merits issue in the case: It again
held that the free-choice-of-provider provision confers
a right enforceable under Section 1983, and that petitioner violated that right. App., infra, 6a-7a. The
court then stated that it soon “will issue a permanent
injunction.” Id. at 11a.
Once the district court enters a permanent injunction, the preliminary injunction will merge into the
permanent injunction on all “issue[s] underlying the
merits claim,” mooting this appeal. Grupo Mexicano,
527 U.S. at 317. The “substantive validity of the final
injunction” will “establish the substantive validity of
the preliminary one.” Id. at 315. Petitioner, of course,
is free to seek review of the permanent injunction in a
new appeal. The exception noted above does not apply
in this case; petitioner’s only challenge to the preliminary injunction is on the merits of respondents’ Section 1983 claims, not on any independent issue unique
to the preliminary injunction. See Pet. i; Pet. App.
15a, 38a-39a.
Respondents recognize that the dispute about the
preliminary injunction is not yet moot. But in light of

6
the fact that the petition is scheduled to be considered
at the Court’s October 9, 2020, conference, respondents wanted to alert the Court to this development
now. Respondents will advise the Court once the district court has entered the permanent injunction and
the dispute addressed in the petition has become
moot.
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted.
ALICE CLAPMAN
Counsel of Record
HELENE T. KRASNOFF
PLANNED PARENTHOOD
FEDERATION OF AMERICA
1110 Vermont Avenue NW,
Suite 300
Washington, DC 20005
(202) 973-4800
alice.clapman@ppfa.org
SEPTEMBER 22, 2020

SUPPLEMENTAL APPENDIX

1a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
PLANNED PARENTHOOD
SOUTH ATLANTIC and
JULIE EDWARDS,
Plaintiffs,
vs.
JOSHUA BAKER, in his
official capacity as Director,
South Carolina Department of
Health and Human Services,

Civil Action No.:
3:18-2078-MGL

Defendant.

MEMORANDUM OPINION AND ORDER
GRANTING PLAINTIFFS’ MOTION FOR
SUMMARY JUDGMENT AS TO COUNT ONE
OF THE COMPLAINT
I. INTRODUCTION
Plaintiffs Planned Parenthood South Atlantic
(PPSAT) and Julie Edwards (Edwards) (collectively,
Plaintiffs) brought this action against Defendant
Joshua Baker (Baker), the director of the South Carolina Department of Health and Human Services
(SCDHHS), alleging Baker’s termination of PPSAT
from South Carolina’s Medicaid program violates 42
U.S.C. § 1396a(a)(23)(A), a provision of the Medicaid
Act (the Act), as well as the Fourteenth Amendment

2a
of the United States Constitution. The Court has jurisdiction over this matter under 28 U.S.C. § 1331.
Pending before the Court is Plaintiffs’ motion for
summary judgment as to Count One of the complaint.
Having carefully considered Plaintiffs’ motion, the response, the reply, the record, and the applicable law,
it is the judgment of the Court Plaintiffs’ motion will
be granted.
II. FACTUAL AND PROCEDURAL HISTORY
This action arises out of SCDHHS’s termination of
PPSAT from South Carolina’s Medicaid program.
SCDHHS is the state agency that administers South
Carolina’s Medicaid program.
PSSAT operates two health centers in South Carolina: one in Charleston and one in Columbia. Prior
to SCDHSS’ termination of PPSAT from South Carolina’s Medicaid program, PPSAT treated patients insured through Medicaid at both of its South Carolina
locations. PPSAT offers its patients, including but not
limited to those insured through Medicaid, a range of
family planning, reproductive health, and preventive
care services at its Charleston and Columbia health
centers.
PPSAT performs abortions at its South Carolina
health centers, but South Carolina Medicaid does not
cover abortions, except under limited circumstances
required by federal law. Edwards is a South Carolina
resident insured through Medicaid, who has been
treated at the Columbia location of PPSAT.
On August 24, 2017, South Carolina Governor
Henry McMaster (McMaster) issued Executive Order
No. 2017-15, directing all State agencies to “take any
and all necessary actions . . . to cease providing State

3a
or local funds . . . to any physician or professional medical practice affiliated with an abortion clinic and operating concurrently with and in the same physical,
geographic location or footprint as an abortion clinic.”
On July 13, 2018, Governor McMaster issued Executive Order No. 2018-21, instructing SCDHHS to
“deem abortion clinics . . . and any affiliated physicians or professional medical practices . . . enrolled in
the Medicaid program as unqualified to provide family planning services and, therefore, to immediately
terminate them upon due notice and deny any future
such provider enrollment applications for the same.”
That same day, SCDHHS notified PPSAT it was no
longer qualified to provide services to Medicaid beneficiaries, and SCDHHS was therefore terminating
PPSAT’s Medicaid enrollment agreements effectively
immediately.
Plaintiffs filed their complaint in this matter on
July 27, 2018. Edwards initially brought suit on her
own behalf and as the representative of a purported
class of South Carolina Medicaid beneficiaries who
have obtained or seek to obtain covered healthcare
services from PPSAT. As the Court noted above, in
Plaintiffs’ complaint, they allege Baker’s actions in
terminating PPSAT from South Carolina’s Medicaid
program violate the Act, as well as the Fourteenth
Amendment of the United States Constitution.
Plaintiffs sought declaratory and injunctive relief,
and the Court granted Plaintiffs’ motion for a temporary restraining order and preliminary injunction.
See Planned Parenthood S. Atl. v. Baker, 326 F. Supp.
3d 39, 49 (D.S.C. 2018) (Baker I ). Baker appealed
that decision to the Fourth Circuit, which effectively
stayed the proceedings before this Court. Thereafter,
the Fourth Circuit affirmed the Court’s decision. See

4a
Planned Parenthood S. Atl. v. Baker, 941 F.3d 687,
699-700 (4th Cir. 2019) (Baker II ).
Plaintiffs subsequently filed the instant motion,
after which the Court denied Plaintiffs’ motion for
class certification and Baker’s motions to dismiss for
lack of subject matter jurisdiction and for a failure to
state a claim.
III. STANDARD OF REVIEW
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). Summary judgment should be granted under Rule 56
when “the pleadings, depositions, answers to interrogatories, and admissions on file, together with the affidavits, if any, show there is no genuine issue as to any
material fact and the moving party is entitled to a
judgment as a matter of law.” Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). A genuine issue of material
fact exists “if the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). A fact is material if it might “affect the outcome of the suit under the governing law.” Id. On a
motion for summary judgment, all evidence must be
viewed in the light most favorable to the nonmoving
party. Perini Corp. v. Perini Constr., Inc., 915 F.2d
121, 123-24 (4th Cir. 1990).
“If a party fails to properly support an assertion of
fact or fails to properly address another party’s assertion of fact as required by Rule 56(c), the court may
. . . grant summary judgment if the motion and supporting materials – including the facts considered undisputed – show that the movant is entitled to it.”

5a
Fed. R. Civ. P. 56(e). The adverse party must show
more than “some metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co., Ltd. v. Zenith
Radio Corp., 475 U.S. 574, 586 (1986). If an adverse
party completely fails to make an offer of proof concerning an essential element of that party’s case on
which that party will bear the burden of proof, then
all other facts are necessarily rendered immaterial
and the moving party is entitled to summary judgment. Celotex, 477 U.S. at 322-23. Hence, the granting of summary judgment involves a three-tier analysis.
First, the Court determines whether a genuine issue actually exists so as to necessitate a trial. Fed. R.
Civ. P. 56(e). An issue is genuine “if the evidence is
such that a reasonable [trier of fact] could return a
verdict for the nonmoving party.” Anderson, 477 U.S.
at 248. Second, the Court must ascertain whether
that genuine issue pertains to material facts. Fed. R.
Civ. P. 56(e). The substantial law of the case identifies
the material facts, that is, those facts that potentially
affect the outcome of the suit. Anderson, 477 U.S. at
248. Third, assuming no genuine issue exists as to the
material facts, the Court will decide whether the moving party shall prevail solely as a matter of law. Fed.
R. Civ. P. 56(e).
Summary judgment is “properly regarded not as a
disfavored procedural shortcut, but rather as an integral part of the Federal Rules as a whole, which are
designed ‘to secure the just, speedy and inexpensive
determination of every action.’ ” Celotex, 477 U.S. at
327 (quoting Fed. R. Civ. P. 1). The primary issue is
whether the material facts present a substantive disagreement as to require a trial, or whether the facts

6a
are so sufficiently one-sided that one party should prevail as a matter of law. Anderson, 477 U.S. at 251-52.
The substantive law of the case identifies which facts
are material. Id. at 248. Only disputed facts potentially affecting the outcome of the suit under the substantive law preclude the entry of summary judgment.
IV. DISCUSSION AND ANALYSIS
Plaintiffs have moved for summary judgment
solely on Count One of the complaint: Edwards’s
claim that Baker’s actions violate the Act by denying
PPSAT’s patients the right to choose any willing,
qualified healthcare provider in the Medicaid program. The Act provides, in relevant part, that “any
individual eligible for medical assistance . . . may obtain such assistance from any institution, agency,
community pharmacy, or person, qualified to perform
the service or services required . . . who undertakes to
provide him such services . . . .”
As an initial matter, the Act’s free-choice-of-provider provision creates a private right of enforcement
under § 1983. See Baker II, 941 F.3d at 699-700 (“Because South Carolina has not rebutted the presumption that a private right of action exists, we join the
Fifth, Sixth, Seventh, Ninth, and Tenth Circuits in
finding that the free-choice-of-provider provision creates a private right enforceable under § 1983.”) (citing
cases). Thus, in the Fourth Circuit, Edwards, as a
matter of law, may seek to enforce the free-choice-ofprovider provision in this § 1983 action.
Turning to Plaintiffs’ claim PPSAT is a medically
and professionally qualified provider, there is no dispute as to whether Baker asserts PPSAT afforded less
than adequate care to its patients. He does not. See

7a
id. at 692 (Baker “did not contend that PPSAT was
providing subpar service to its Medicaid patients, or
to any other patients. Instead, PPSAT was terminated solely because it performed abortions outside of
the Medicaid program.”) (footnote omitted).
And, Baker, in his response in opposition to Plaintiffs’ motion, fails to dispute PPSAT is unqualified to
perform any services under the Act. Consequently,
the record is void of any argument or evidence PPSAT
was unqualified to perform any services as set forth in
the Act.
In Baker’s response, however, he sets forth nine
arguments as to why the Court should deny Plaintiffs’
motion.
First, Baker argues Plaintiffs’ motion should be denied and the case should move forward with a ruling
on his then-pending motions to dismiss. This argument is now moot, as the Court has since denied
Baker’s motions to dismiss for lack of subject matter
jurisdiction and for a failure to state a claim.
Second, Baker asserts the motion should be denied
as a result of the dispute resolution sections of the Enrollment Agreements PPSAT entered into with
SCDHHS which, according to Baker, foreclose PPSAT
from pursuing a § 1983 claim in a federal forum.
Baker opines “[s]ince PPSAT waived its right to pursue a § 1983 claim in a federal forum by entering into
its Enrollment Agreements with the SCDHHS, this
Court lacks subject matter jurisdiction over its claims
and PPSAT should be dismissed as a plaintiff, not
granted summary judgment.” Baker’s Response at 5.
But, Baker misreads Plaintiffs’ motion for summary judgment. Both plaintiffs have moved for summary judgment solely as to Edwards’s first claim in

8a
the complaint. Thus, Baker’s objection regarding
PPSAT’s claims has no relevancy to this motion.
Third, Baker avers the motion should be denied
due to PPSAT’s failure to exhaust all administrative
remedies under South Carolina law. Much in line
with his second argument, Baker confuses PPSAT
moving for summary judgment on Edwards’ first
claim with improperly making arguments as to why it
should be allowed to move for summary judgment on
its own § 1983 claim. Thus, the Court need not address this argument.
Fourth, Baker complains the motion should be denied because Edwards has failed to meet the injuryin-fact requirement of the Article III standing analysis. However, this Court already held Edwards meets
the injury-in-fact element of the standing analysis.
See Baker I, 326 F. Supp. 3d at 49 (“Ms. Edwards . . .
will suffer irreparable harm in the absence of an injunction because [she] will be deprived of [her] statutory right to the qualified provider of [her] choice.”).
The Court reaffirmed this holding in a subsequent ruling. See Planned Parenthood S. Atl. v. Baker, No.
3:18-02078, 2020 WL 1434946 at *3 (D.S.C. Mar. 23,
2020) (“Edwards meets the injury-in-fact element of
the standing analysis.”). The Court’s previous holdings apply here. See United States v. Aramony, 166
F.3d 655, 661 (4th Cir. 1999) (“[T]he doctrine of the
law of the case posits that when a court decides upon
a rule of law, that decision should continue to govern
the same issues in subsequent stages of the same
case.”).
Fifth, Baker argues Edwards’ claim is not ripe for
adjudication. Whether Edwards’s action is ripe for adjudication has also already been answered in the affirmative by the Court. See Planned Parenthood S.

9a
Atl. v. Baker, No. 3:18-02078, 2020 WL 1434946 at *3
(Edwards’s “claims are ripe for adjudication.”).
Sixth, Baker posits the case should move forward
via his filing of an answer and commencing discovery,
assuming his motions to dismiss are denied. As the
Court mentioned above, Baker’s motions to dismiss
for lack of subject matter jurisdiction and a failure to
state a claim were denied, so the Court must analyze
only whether Baker is entitled to discovery.
Baker seeks discovery from Plaintiffs in the following areas: (1) Impact on PPSAT, (2) Impact on Edwards, (3) Class allegations, (4) Affirmative Defenses
to be filed when appropriate, and (5) information
known to the four fact witnesses listed by Plaintiffs in
their Local Rule 26.03 interrogatories.
Plaintiffs have agreed that, if the Court grants
their motion for summary judgment on Count One of
the complaint, it is unnecessary for the Court to consider their remaining claims inasmuch as such a ruling would dispose of the controversy. Thus, in light of
the Court’s decision to grant Plaintiffs’ motion, this
Order properly ends the case, and no further discovery
is needed.
Seventh, Baker insists Plaintiffs’ motion should be
denied because the Court, according to Baker, “has no
record on which to adjudge summary judgment for the
simple fact that there is no factual record in this case
aside from affidavits and declarations filed by the parties in August, 2018 which have not been updated or
vetted through the discovery process.” Baker’s Response at 9.
When entertaining Plaintiffs’ motion, the Court
has one overarching objective: to determine whether
the movant shows there is no genuine dispute as to

10a
any material fact. Fed. R. Civ. P. 56(a). As discussed
in detail above, the record demonstrates to the Court
it can adjudicate Plaintiffs’ motion based only on questions of law. Thus, the scant factual record Baker
speaks of is of no consequence.
Eighth, Baker contends the Fourth Circuit incorrectly held (1) the Medicaid Act’s free-choice-of-provider provision affords a private right of action to a
Medicaid recipient and (2) the Act does not authorize
a private right of action under § 1983 to collaterally
attack a state agency’s decision to exclude a provider
from the state’s Medicaid program. This argument is
made to the wrong court. The Court is required to follow Fourth Circuit precedent, and no argument from
Baker will persuade the Court otherwise.
Ninth, Baker avows “judicial economy is best
served by allowing discovery and mediation to proceed
in this matter as set forth in this Court’s Amended
Scheduling Order.” Baker’s Response at 10.
If a legal matter before the Court consists purely
of a question of law, as opposed to a question of fact,
judicial economy mandates a timely decision, without
discovery, by the Court. Furthermore, the existence
of an Amended Scheduling Order is merely a procedural mechanism that has no bearing on the merits of
the underlying action. Regardless, with this Order,
the need for further proceedings ends, so Baker’s contention is now moot.
VI. CONCLUSION
For the reasons stated above, the Court GRANTS
Plaintiffs’ motion for summary judgment as to Count
One of the complaint, and their request for a declaratory judgment that Baker’s decision to terminate

11a
PPSAT from Medicaid violates the Medicaid Act is,
and will be, void and of no effect.
In addition, the Court will issue a permanent injunction enjoining Baker and his agents, employees,
appointees, delegates, and successors from terminating PPSAT from Medicaid as a result of its provision
of lawful abortion-related services to PPSAT clients.
As per Local Civil Rule 7.10, except as modified
herein, within seven days from the entry of this Order,
Plaintiffs’ counsel shall provide to the Court and to opposing counsel a draft order granting Plaintiffs’ request for a permanent injunction. See Fed. R. Civ. P.
65(d).
Defense counsel shall have seven days after receiving the draft order to submit any comments on the
proposed order to the Court.
IT IS SO ORDERED.
Signed on this 17th day of September 2020, in Columbia, South Carolina.
s/ Mary Geiger Lewis
MARY GEIGER LEWIS
UNITED STATES DISTRICT JUDGE

